U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                   U.S. CENSUS BUREAU

     Improving Our Measure of America:
        What the 2004 Census Test Can
            Teach Us in Planning for the
                2010 Decennial Census

           Final Report No. OIG-16949/September 2004




                          PUBLIC
                          RELEASE



                          Office of Inspector General

U.S. Department of Commerce                                                                                   Final Report OIG-16949

Office of Inspector General                                                                                           September 2004



                                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY ..............................................................................................................i


INTRODUCTION .......................................................................................................................... 1


OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................................... 5


OBSERVATIONS AND CONCLUSIONS ................................................................................... 7


I.	       AUTOMATED NONRESPONSE FOLLOWUP APPEARS FEASIBLE, BUT 

          TECHNICAL ISSUES NEED TO BE RESOLVED.......................................................... 7

          A.	  Many HHC Functions Appeared to Work Well, but System Reliability and 

               Map Response Time Must Be Improved ................................................................ 9

          B. 	 The Operations Control System Appeared to Support Automating NRFU.......... 12

          C.	  Transmission Problems Disrupted Training and Enumeration............................. 12

          D.	  Field Personnel Need Improved Technical Support ............................................. 14


II. 	     NRFU TRAINING IMPROVEMENTS ARE NEEDED ................................................. 17

          A.	  Enumerator Problems Observed During NRFU May Be Linked to 

               Weaknesses in Training ........................................................................................ 17

          B.	  New Training Requirements Increase Challenges in Obtaining Adequate 

               Space ..................................................................................................................... 21


III.	     TEST OF REVISED GROUP QUARTERS DEFINITIONS WAS HAMPERED 

          BY INSUFFICIENT PLANNING.................................................................................... 22

          A. 	  Late Delivery of and Ambiguity in Group Quarters Definitions 

                Undermined Listers’ Ability to Accurately Categorize Residences ..................... 24

          B.	   Test Sites Contained No University-Leased Off-Campus Housing ..................... 26


IV.	      RECRUITING AND PARTNERSHIP EFFORTS WENT WELL AND 

          QUALITY ASSURANCE METHOD WAS IMPROVED OVER CENSUS 2000 ......... 28

          A.	  Recruiting and Partnership Operations Achieved an Adequate Pool of 

               Candidates and Garnered Local Support .............................................................. 28

          B.	  New Quality Assurance Operation Supports Data Integrity................................. 29


V.	       SOME MANAGEMENT AND ADMINISTRATIVE ACTIVITIES NEED 

          ATTENTION.................................................................................................................... 30

          A. 	 Test Implementation Differed Between the Two LCOs....................................... 30

          B.	  Crew Leader Selection Criteria Need to Reflect Higher- Level Skill 

               Requirements ........................................................................................................ 32

          C.	  Georgia Failed to Comply with Census Hiring Policies ....................................... 33

          D. 	 HHC Inventory Controls Need Improvement ....................................................... 34


APPENDIX: Census Bureau Response ........................................................................................ 35

U.S. Department of Commerce                                                               Final Report OIG-16949

Office of Inspector General                                                                       September 2004


                                         EXECUTIVE SUMMARY


The decennial census is a constitutionally mandated population count that provides the basis for
reapportioning seats in the U.S. House of Representatives. It is also used for redrawing state
legislative district boundaries and allocating federal funds to state and local governments. The
decennial censuses provide official, uniform information gathered over decades on the social,
demographic, and economic characteristics of the nation’s people. Because of its importance,
the decennial census must be as accurate and complete as possible.

The 2000 Decennial Census yielded many successes, such as a higher than expected mail
response rate and a reduction of the differential undercount. Contributing factors to the
successful implementation of the decennial were: a greatly expanded and aggressive commercial
advertising campaign, use of improved techno logy for capturing questionnaire data, and
increased emphasis on recruitment, partnership, and outreach activities. However, the 2000
decennial also highlighted areas of weakness. Delays in finalizing the operational design left
insufficient time for planning and testing. Moreover, incomplete and duplicate address list and
map information and an often ad hoc approach to software development led to complications and
some disruptive errors that had to be corrected during the course of the 2000 decennia l
operations.

In addition, the cost of conducting the decennial census has increased dramatically over the
years. According to GAO, in constant 2000 dollars, the 1990 Census cost $3.3 billion, the 2000
Census cost $6.6 billion, and the cost of the 2010 Census is estimated to be $9.3 billion.

To address the challenges of the 2010 decennial, the bureau has adopted a reengineering strategy
intended to improve the relevance of census long- form data, 1 reduce operational risk, improve
the accuracy of census coverage, and contain costs. The three integrated components of the
bureau’s strategy are to: (1) collect and tabulate long-form data every year throughout the decade
through a large household survey, (2) enhance and improve the existing address list and
geographic database, and (3) conduct a program of early planning, development, and testing.

The 2004 test is the first of two scheduled site tests of concepts, systems, and procedures being
explored for the reengineered census. The most costly operation in the decennial is nonresponse
followup (NRFU) in which temporary Census employees (enumerators) visit addresses for which
the bureau has not received a mailed back questionnaire. Automating NRFU’s paper-based
processes is a key feature of the bureau’s redesign for Census 2010, and if successful, should
enhance operational efficiency, data quality, enumerator productivity, and help contain costs.
The transformation is built around a handheld computer (HHC) designed to allow enumerators to
manage their housing assignments, locate housing units using electronic maps and global
positioning system (GPS) technology, 2 interview household occupants using an automated
questionnaire with English and Spanish text, and exchange data daily with Census headquarters.

1
  The long form asked more personal and housing questions than the short form and was sent to about 17 percent of
the population in the 2000 Census.
2
  GPS is a space-based radio-navigation system consisting of a constellation of satellites that provides users with
accurate information on position, velocity, and time. GPS coordinates are a unique numeric or alphanumeric
description of the position.


                                                         i
U.S. Department of Commerce                                                   Final Report OIG-16949

Office of Inspector General                                                           September 2004


A major objective of the test was to determine whether HHCs could effectively support NRFU
activities and whether the enumerators were able to use them to perform their work.

In addition to an automated NRFU, the bureau tested new methods for
improving census coverage (including minimizing address duplication)
and gauging respondent reaction to new race and origin questions. It
also tested revised definitions and methods for distinguishing between
group quarters and housing units. The bureau plans to conduct detailed
evaluations of these activities, most to be completed in 2005. Leading
up to the 2010 census, the bureau plans a second site test in 2006, and a
dress rehearsal in 2008.

For the 2004 test, the bureau established two local census offices
(LCOs)—one located at an urban site—a portion of the New York City
Borough of Queens, the other at a rural site—three counties (Colquitt,
Tift, and Thomas) located in south central Georgia. Combined, the two       The palm-sized handheld
offices visited more than 120,000 non-responding households. In             computer used for the 2004
comparison, the 2000 decennial had 520 LCOs and visited 42 million          NRFU operation.
non-responding households.

Each LCO was equipped with the necessary infrastructure—the mix of space, staff, forms and
supplies, operating procedures, training manuals, computer hardware and software, and
telecommunications networks—to facilitate the flow, processing, and reporting of info rmation
needed to manage the collection of questionnaire data and transmit the data to Census
headquarters.

A multidisciplinary team from OIG’s Office of Audits, Office of Inspections and Program
Evaluations, and Office of Systems Evaluation reviewed selected aspects of the 2004 census test
to evaluate the effectiveness of (1) HHCs and associated systems in automating NRFU;
(2) enumerator hiring, training, and quality control processes; (3) revised definitions and
methods for distinguishing between group quarters and housing units; and (4) management,
administrative, and logistical support for the 2004 test.

We conducted our review from March 2004 through July 2004 at bureau headquarters in
Suitland, Maryland; regional offices in Atlanta and New York; and at both the Georgia and
Queens LCOs. We attended crew leader training and portions of 15 enumerator training classes,
and observed 31 enumerators during the first 3 weeks of NRFU. Although the training classes
and enumerators observed are not statistically representative samples, such observations are
helpful in identifying areas that went well, as well as areas in need of improvement.




                                                 ii
U.S. Department of Commerce                                                  Final Report OIG-16949

Office of Inspector General                                                          September 2004


Our review disclosed the following.

•	 Automated nonresponse followup appears feasible, but technical issues need to be
   resolved. The test demonstrated that HHCs and related automation are promising
   replacements for paper-based NRFU. The enumerator workforce—recruited, hired, and
   trained using the bureau's traditional practices—was able to use the HHCs. HHC assignment
   and questionnaire functions generally appeared to work well, as did the Operations Control
   System used for assigning cases to enumerators' HHCs, processing their questionnaire data,
   and providing other critical management functions. Enumerators were generally also able to
   follow procedures and collect housing unit GPS coordinates, although the bureau must still
   determine GPS accuracy.

   However, the test exposed weaknesses with data transmissions, technical support to the field
   and the bureau's system and software engineering practices in developing the field data
   collection systems. Specifically, transmission problems and inadequate help desk support led
   to serious disruptions of enumerator training and NRFU operations. The delivery of
   inadequately tested HHC software to the field and the consequent need to transmit improved
   software during enumerator training stressed the telecommunication system, and was a major
   contributor to the transmission problems and their attendant disruptions. Operations were
   further disrupted by HHC crashes and loss of interview data. Moreover, the slow
   performance of the electronic maps on the HHCs has prevented the bureau from adequately
   assessing the maps and the other navigation aids. To mitigate these problems for future tests
   and the 2010 Census, the bureau will need alternative approaches for transmissions and
   technical support, and improved system and software engineering, including requirements
   specification, design, integration, and testing. (See page 7.)

•	 NRFU training improvements are needed. Effectively training over a half million
   temporary workers is a major challenge in conducting a decennial census, which the bureau
   has traditionally addressed using rigidly scripted “verbatim” training. Some problems we
   observed during NRFU operations appeared to be systemic and long-term, from enumerators
   answering questions for respondents to inadequately handling reluctant respondents, and may
   be linked to weaknesses in training. Introduction of the HHC has made training even more
   difficult, particularly because of the need to train enumerators having little or no familiarity
   with computers. To improve training and mitigate some of the problems we observed, the
   bureau should consider preparing alternative scripts or explanations for asking awkward
   questions. It should also consider whether alternative training methods to supplement the
   verbatim technique, such as multi- media and computer-based training, would be cost
   effective.

   Because of the increased requirements for training, the space that accommodates it must have
   an adequate infrastructure to support the training. Since the bureau tries to use free or low-
   cost space, some of the training sites will inevitably lack desirable features. Consequently,
   the process for obtaining the training sites must ensure that the facilities accommodate
   technology requirements. In the event that the space lacks some of the necessary features,
   management must ensure that adequate training can still take place. (See page 17.)



                                                iii
U.S. Department of Commerce                                                  Final Report OIG-16949

Office of Inspector General                                                          September 2004



•	 The test of revised group quarters definitions was hampered by insufficient planning.
   The late delivery of new group quarters definitions and the ambiguity in the definitions
   undermined the staffs’ ability to accurately categorize residences. We found that the process
   for redefining group homes was not in step with the 2004 test schedule. Consequently, the
   interim definition that identified group homes as housing units during address canvassing
   was delivered late, and the resulting instructions were inadequate. For the 2006 test, the
   bureau needs to solidify new definitions and deliver the requirements early so that they can
   be adequately incorporated into the test operations. In addition, we observed that neither test
   site contained university- leased off-campus housing, the second key new definition being
   tested. For future census tests, the bureau needs to better correlate its objectives with the
   choice of test site. For the 2006 test, the sites have already been chosen. However, the
   bureau should determine whether the sites would adequately test the new definition. If not,
   the boundaries may need to be expanded or an alternative approach used for testing its group
   quarters objective. The bureau should also determine whether the optimal approach to
   accurately locating and enumerating group quarters is being tested. (See page 22.)

•	 Recruiting and partnership efforts went well and quality assurance method was
   improved over 2000 census. Certain operations ran well, such as the recruitment and
   partnership efforts, which successfully promoted awareness of the census operation and
   enabled the LCOs to meet staffing goals. In addition, the new quality assurance operation
   successfully isolated the reinterview process from field operations. However, to better
   ensure data integrity during the nonresponse followup operation, the training manuals could
   better describe the independence and authority of the assistant manager for quality assurance.
   (See page 28.)

•	 Some management and administrative activities need attention. A census test must
   adequately document problems encountered during the operations under review so that those
   operations can be carefully evaluated and improved as needed. We found that of the 2 sites,
   one seemed to have a clearer understanding of the purpose of the test. Specifically, the
   Queens LCO staff appeared to systematically and strategically “test” and document what did
   and did not work. For a census test to work, it is important that all parties involved
   understand the procedures to be followed and the need for problems to be reported and
   documented.

   We also found that selection criteria and uniform processes for selecting crew leaders were
   lacking, and that the Georgia LCO was not consistently following Census hiring policies
   until headquarters personnel visiting Georgia pointed out problems. Likewise, we found that
   no formal mechanism was in place at either LCO to monitor and ensure the prompt return of
   the HHC equipment from separated employees. (See page 30.)

We recognize that the purpose of the 2004 test was to assess concepts, systems, and procedures
for a reengineered 2010 Census, and that some of the problems encountered may not be issues
for future tests or the 2010 decennial (for example, systems tested were not prototypes of the
final technical design). Nevertheless, the problems that surfaced during the test underscore the
challenges faced by Census in achieving a thoroughly tested and smoothly running 2010
decennial census operation.


                                                iv
U.S. Department of Commerce                                                        Final Report OIG-16949

Office of Inspector General                                                                September 2004




In an effort to provide the bureau and other stakeholders with timely feedback regarding the test,
we decided to issue this report without formal recommendations. Rather, we are providing the
bureau with our observations and conclusions and ask that Census develop and implement plans
to address these areas for the 2006 test, 2008 dress rehearsal, and 2010 decennial census. Below
is a summary of issues to be addressed (1) for the next site test planned in 2006, (2) to
successfully automate NRFU, and (3) to better ensure administrative and programmatic success.


           BEYOND THE 2004 TEST: PREPARING FOR THE 2010 D ECENNIAL CENSUS

      To meet performance and cost goals for the 2010 decennial, the Census Bureau should
      develop and implement plans that accomplish the following:

                                               2006 Test
          •	 Balance the dual objectives of managing a test and conducting a census, including
             complete documentation of test problems and operations.
          •	 Confirm that test sites support test objectives (e.g., select representative group
             quarters housing to test university-leased, off-campus definition) or find an
             alternative for testing the objective.
          •	 Explore and test alternative methodologies to train enumerators.

                                       Automated Operations
         •	 Reevaluate and improve data transmissions.
         •	 Reevaluate and improve field operations technical support.
         •	 Define complete and verifiable specifications that address functional, performance,
            and human factor requirements for further system development and acquisition.
         •	 Improve system and software engineering practices to ensure the deployment of
            thoroughly tested automated capabilities before training and operations begin.
         •	 Plan contingencies for essential NRFU components whose failure would jeopardize
            field operations.
         •	 Improve performance of and further test map functions.
         •	 Upgrade selection criteria for crew leaders to reflect higher level skill requirements.
         •	 Ensure HHC training can be effective in facilities lacking functional and accessible
            electrical outlets and telephone lines.
         •	 Establish better inventory controls for reclaiming HHCs from departing employees.

                                       Other Considerations
         •	 Gain consensus for new definitions (e.g., group quarters) prior to applying them in an
            operation.
         •	 Reinforce Census hiring policies to LCO staff.
         •	 Continue to emphasize partnership efforts to recruit staff and publicize the census
            (i.e., increase participation).
         •	 Verify that the quality assurance operation supports data integrity.


Our observations and conclusions begin on page 7.




                                                   v
U.S. Department of Commerce                                                  Final Report OIG-16949

Office of Inspector General                                                          September 2004





In its response to our draft report, the Census Bureau stated that it had no substantial
disagreements with our observations, asserting they were similar to their own findings. In
addition, the bureau said that the suggestions contained in the report would be considered as the
bureau plans for the 2006 Census Test, 2008 Dress Rehearsal, and the 2010 Census. The
response also clarified some areas in the draft report, which we have incorporated into the final
report. The bureau’s response is included as an appendix to the report.




                                                vi
U.S. Department of Commerce                                                         Final Report OIG-16949

Office of Inspector General                                                                 September 2004


                                           INTRODUCTION


The decennial census is a constitutionally mandated population count that provides the basis for
reapportioning seats in the U.S. House of Representatives. It is also used for redrawing state
legislative district boundaries and allocating federal funds to state and local governments. The
decennial censuses provide official, uniform information gathered over decades on the social,
demographic, and economic characteristics of the nation’s people. Because of its importance,
the decennial census must be as accurate and complete as possible.

The 2000 Decennial Census yielded many successes, such as a higher than expected mail
response rate and a reduction of the differential undercount. Contributing factors to the
successful implementation of the 2000 Census were: a greatly expanded and aggressive
commercial advertising campaign, use of improved technology for capturing questionnaire data,
and increased emphasis on recruitment, partnership, and outreach activities. However, the 2000
decennial also highlighted areas of weakness. Delays in finalizing the operational design left
insufficient time for planning and testing. In addition, incomplete and duplicate address list and
map information and an often ad hoc approach to software development led to complications and
some disruptive errors that had to be corrected during the course of the 2000 decennial
operations.

The Office of Inspector General has documented many of these challenges in its more than 30
reports and special memorandums issued on the 2000 decennial. This report is the third in a
series on the bureaus' preparations for the 2010 Decennial and details our review of the 2004
census test. Our first report, 3 issued in 2002, addressed the lessons learned from the 2000 census
that need to be considered by the bureau in its 2010 preparations. It pointed out that more needs
to be done to improve data accuracy, implement more cost-effective operations, and reduce the
risk associated with the decennial—all to be accomplished in an environment characterized by
increasing demographic diversity and rapid technological change. In our second report, 4 issued
last year on the MAF/TIGER redesign, Census’s project to modernize the map and address
databases, we noted that the bureau had yet to implement a comprehensive project management
process and needed to accelerate software process improvement on the project.

The overall cost of conducting the decennial census has increased dramatically over the years.
According to GAO, in constant 2000 dollars, the 1990 Census cost $3.3 billion, the 2000 Census
cost $6.6 billion, and the cost of the 2010 Census is estimated to be $9.3 billion.

The most costly operation in the decennial is nonresponse followup (NRFU). NRFU is a labor-
intensive operation in which temporary Census employees (enumerators) visit addresses from
which the bureau has not received a mailed back questionnaire. NRFU accounted for
$1.4 billion, or 26 percent of the total cost of the 2000 decennial. Contributing to this cost was
the fact that of the 42 million nonresponding households, nearly 4.2 million were enumerated
multiple times—once in other operations, and again during NRFU.

3
  Office of Inspector General, U.S. Department of Commerce, Improving our Measure of America: What Census 

2000 Can Teach Us in Planning for 2010, Report No. OIG-14431, Spring 2002.

4
  Office of Inspector General, U.S. Department of Commerce, MAF/TIGER Redesign Project Needs Management 

Improvements to Meet Its Decennial Goals and Cost Objectives, Report No. OSE-15725, September 2003.




                                                   1

U.S. Department of Commerce                                                                  Final Report OIG-16949

Office of Inspector General                                                                          September 2004




Decennial time line requires disciplined testing and evaluation

To address the challenges of the 2010 decennial, the bureau has adopted a reengineering strategy
intended to improve the relevance of census long- form data, 5 reduce operational risk, improve
the accuracy of census coverage, and contain costs. The three integrated components of the
bureau’s strategy are to: (1) collect and tabulate long-form data every year throughout the decade
through a large household survey, (2) enhance and improve the existing address list and
geographic database, and (3) conduct a program of early planning, development, and testing.

Leading up to the 2010 census, the bureau plans                      Decennial Census Tests Planned for 2010
to conduct a number of large-scale field tests:
another site test in 2006; several national tests                  Site Tests          2004 Census Test
that will examine, for example, revised wording,                                       2006 Census Test
layout, and replacement questionnaire delivery
                                                                   National Tests      2003 National Census Test
methods; two tests to determine the feasibility of                                     2005 National Census Test
enumerating U.S. citizens overseas; and a full
dress rehearsal in 2008.                                           Overseas Tests      2004 Overseas Census Test
                                                                                       2006 Overseas Census Test
Figure 1 illustrates decennial planning. The 2004
                                                        Dress Rehearsal 2008
and 2006 tests, the dress rehearsal in 2008, and
the 2010 decennial are scheduled at 2-year
intervals but each has a 3- year time line, and thus Source: U.S. Census Bureau
overlaps with many prior or subsequent
operations. Building on experiences and incorporating feedback from events and evaluations
that may still be in process as the next operation begins is crucial to the bureau’s ability to stay
on course and implement reengineered processes.


Figure 1: Decadal Test/Implementation Schedule for Census 2010

      Census 2000                                                Second Site Test                      Census 2010
      Census Day –                                               Census Day –                          Census Day –
      April 1, 2000                                              April 1, 2006                         April 1, 2010



         2000     2001      2002      2003      2004      2005     2006     2007      2008     2009      2010




                                             First Site Test                        Dress
                                             Census Day –                           Rehearsal
                                             April 1, 2004                          Census Day –
                                                                                    April 1, 2008




5
    A form sent to about 17 percent of the population that asks additional personal and housing questions.




                                                          2

U.S. Department of Commerce                                                                                                   Final Report OIG-16949

Office of Inspector General                                                                                                           September 2004


The 2004 test provides an opportunity to assess the bureau’s progress in planning for the 2010
decennial. It is also a good measure of the bureau’s efforts in areas of importance we raised in
our MAF/TIGER report and in our summary evaluation of Census 2000, including improving
software and systems engineering practices, producing accurate address lists and maps, and
improving management of its temporary staffs. The bureau plans to conduct detailed evaluations
of the test, most to be completed in 2005.

2004 field test conducted in Queens, New York and Colquitt, Thomas, and Tift counties, Georgia

The 2004 test is the first of two scheduled site tests of concepts, systems, and procedures being
explored in the reengineered census. The test was conducted at two locations—one rural
(Colquitt, Thomas, and Tift counties in south central Georgia) and one urban (encompassing a
portion of Queens, New York). Each was managed by a local census office (LCO) and
equipped with the necessary infrastructure—the mix of office space, staff, forms and supplies,
operating procedures, training manuals, computer hardware and software programs, and
telecommunications networks to facilitate the flow, processing, and reporting of information
needed to manage the collection of questionnaire data and transmit the data to Census
headquarters.

For the 2000 decennial, 520 local census offices conducted census operations and visited
42 million non-responding households during NRFU. Figure 2 depicts the regional and LCO
organizational structure for NRFU at the two sites.

Figure 2: Organization Chart for Nonresponse Followup
                                                                      Regional Director


                               Partnership
                                Specialist                             Area Manager                 Regional Technician


                                                               Local Census Office Manager


Assistant Manager       Assistant Manager                     Assistant Manager                       Assistant Manager                   Assistant Manager
  for Recruiting         for Technology                       for Administration                     for Field Operations               for Quality Assurance


             HHC Help Desk          HHC Tracking &Control      Office Operations          Field Operations         Office Operations    Office/Field Operations
                Clerks                     Clerks                 Supervisor                 Supervisor                Supervisor             Supervisor


                                                                    Clerks                 Crew Leaders                     Clerks          Crew Leaders
                                                                                          & CL Assistants                                  & CL Assistants


                                                                                            Enumerators                                     Enumerators



                Field operations supervisors are responsible for daily field operations.

                Crew leaders train and supervise enumerators in their assigned crew leader districts, and ensure that enumerators’ work is 

                completed correctly, efficiently, and on schedule.

                Crew leader assistants help crew leaders train enumerators and perform other duties as assigned.

                Enumerators use the Census HHC to find each housing unit and complete a cen sus interview.





                                                                         3

U.S. Department of Commerce                                                              Final Report OIG-16949

Office of Inspector General                                                                      September 2004


Automating NRFU’s paper-based processes is a key feature of the bureau’s decennial redesign
for Census 2010, and if successful, should enhance operational efficiency, data quality,
enumerator productivity, and help contain costs. For example, late mail returns from
approximately 780,000 households could not be removed from NRFU during the 2000 decennial,
necessitating a visit to these households. The Census 2000 estimated cost per housing unit for
NRFU was $26.96. 6 Consequently, the potential for savings exists if personal visits to these
households could be prevented through automation.

NRFU automation for the 2004 test is built around a handheld computer system designed to
allow enumerators to manage their housing assignments, locate housing units using electronic
maps and global positioning system (GPS) technology, 7 interview household occupants using an
automated questionnaire with English and Spanish text, and exchange data daily with Census
headquarters.

In addition to evaluating automated NRFU during the 2004 test, the bureau intends to assess new
methods for improving census coverage (including minimizing address duplication), gauge
respondent reaction to new race and origin questions, and evaluate revised definitions and
methods for distinguishing between group quarters and housing units. Traditionally, when
conducting field tests, the bureau also obtains an official count of the population. However, to
ensure that the test objectives were not overshadowed by the need for a complete and accurate
count, Census did not conduct a full official enumeration of the test areas.




6
 Nonresponse Followup for Census 2000, Census 2000 Evaluation H.5, p. vii., U.S. Census Bureau, July 25, 2002.
7
 GPS is a space-based radio-navigation system consisting of a constellation of satellites that provides users with
accurate information on position, velocity, and time. GPS coordinates are a unique numeric or alphanumeric
description of the position.



                                                      4

U.S. Department of Commerce                                                 Final Report OIG-16949

Office of Inspector General                                                         September 2004


                       OBJECTIVE, SCOPE, AND METHODOLOGY


A multidisciplinary team from OIG’s Office of Audits, Office of Inspections and Program
Evaluations, and Office of Systems Evaluation reviewed selected aspects of the 2004 census test
to evaluate the effectiveness of (1) handheld computers and associated systems in automating
NRFU; (2) enumerator hiring, training, and quality control processes; (3) revised definitions and
methods for distinguishing between group quarters and housing units; and (4) management,
administrative, and logistical support for the 2004 test.

We conducted our review from March 2004 through July 2004 at bureau headquarters in
Suitland, Maryland; regional offices in Atlanta and New York; and the Queens, New York, and
the three-county Georgia LCOs—the sites of the 2004 testing.

As part of our review, we conducted:

   (1) Reviews of ­
       •	 2004 census test pla nning and evaluation documentation to determine the bureau’s
          goals and objectives for the test, as well as Census regulations, policies, and
          procedures.
       •	 Test operations documentation to determine Census regulations, policies, and
          procedures, including manuals describing the roles and responsibilities of managers
          and staff.
       •	 Training manuals and materials for crew leaders and enumerators
       •	 Technical documentation describing the handheld computer and Operations Control
          System, and overall system architecture and workflow.
       •	 2004 census test group quarters data from the Queens address canvass operation and
          Census 2000 group quarters data and group quarters validation data from both 2004
          test sites.
       •	 Administrative files to determine compliance with administrative requirements.

   (2) Interviews with ­
       •	 LCO staff involved in the group quarters address canvassing and update/leave
           operations (we did not observe these earlier operations).
       •	 Bureau headquarters officials in the Office of the Associate Director for Decennial
           Census and the Office of the Associate Director for Field Operations, Suitland,
           Maryland.
       •	 Regional management officials in Atlanta, Georgia, and New York City.
       •	 LCO managers and supervisors at both test locations, help desk clerks, and a total of
           58 enumerators, crew leaders, and crew leader assistants.

   (3) Observations of ­
       •	 Crew leader training in March 2004 and portions of 15 enumerator-training classes
          held in April 2004 at both locations.
       •	 Nonresponse followup operations at both test locations during the first three weeks.
          We observed enumerators conducting interviews and attended crew leader and crew




                                              5

U.S. Department of Commerce                                                 Final Report OIG-16949

Office of Inspector General                                                         September 2004


           leader assistant meetings. We also observed LCO staff and field operations
           supervisors managing workloads, and where applicable, staff.

   (4) Testing of ­
       • Selected handheld computer functionality and performance.

   We recognize that the purpose of the 2004 test was to assess concepts, systems, and
   procedures for a reengineered 2010 Census, and that some of the problems encountered may
   not be issues for future tests or the 2010 decennial (for example, systems tested were not
   prototypes of the final technical design). Nevertheless, the problems that surfaced during the
   test underscore the challenges faced by Census in achieving a thoroughly tested and
   smoothly running 2010 decennial census operation.




                                             6

U.S. Department of Commerce                                                Final Report OIG-16949

Office of Inspector General                                                        September 2004


                              OBSERVATIONS AND CONCLUSIONS


I.	    AUTOMATED NONRESPONSE FOLLOWUP APPEARS FEASIBLE, BUT
       TECHNICAL ISSUES NEED TO BE RESOLVED

For Census 2010, the bureau wants to equip enumerators with relatively inexpensive handheld
computers (HHCs) with GPS capabilities to locate households and collect questionnaire data
during nonresponse followup (NRFU). Handheld computers would replace the laborious
decennial process of managing paper questionnaires and address assignment lists, improve data
quality and operational efficiency, and reduce costs. A major purpose of the 2004 test was to
determine the feasibility of using HHCs to automate NRFU operations.

To evaluate the feasibility of automating NRFU, we assessed whether enumerators were able to
use the HHCs, as well as whether HHCs and related systems appeared to work as intended and
seemed capable of supporting NRFU operations. We focused our work on the following:

•	 HHC functions—assignment management, automated
   questio nnaire, electronic maps, and GPS coordinate
   collection;

•	 Operations Control System (OCS) workflow functions—
   allocating assignments to HHCs, processing completed
   assignments, eliminating unneeded assignments from
   HHCs, supporting supervisory reviews, and reporting on
   production;

•	 Transmissions—transfer of data between enumerator’s
   HHC and Census telecommunication system at
   headquarters; and

•	 Technical support for HHCs—assistance to enumerators
   and crew leaders in solving problems encountered in
   using the handheld computers.                               The palm-sized handheld computer
                                                               used for the 2004 NRFU operation.
Figure 3 provides a schematic of the field data collection
systems (HHC, OCS, and telecommunication system) and daily workflow for the 2004 test of
NRFU automation.

Our observation of the 2004 test suggests that HHCs and related automation show promise for
replacing paper-based NRFU. However, the test exposed weaknesses with the approach used for
transmissions and technical support and with the bureau’s system and software engineering
practices in developing the field data collection systems.




                                             7

U.S. Department of Commerce                                                            Final Report OIG-16949

Office of Inspector General                                                                    September 2004


Figure 3: NRFU Field Data Collection Systems and Daily Workflow

       Enumerator’s                                      Census
       Home                                              Headquarters
                          2              3
             HHC          1
                                  Transmissions           Telecom              4
                                                          System                           OCS
                                                                                         Database
                                                                                          Server




                                                                                                 5


       1                                                              Local Census
                                                                      Office (LCO)         OCS
                                                                                         Desktop
                                                                                          Client



                                                                                           5




                                          Basic Daily Workflow

      1.	 Each day the enumerator selects assignments from his or her HHC assignment list, goes into the
          field, and uses the HHC to locate addresses and conduct interviews.

      2.	 Each evening the enumerator initiates a transmission to exchange data with Census headquarters.
          The enumerator connects the HHC to the home telephone jack and sets up the HHC to connect to the
          Census telecommunication (Telecom) system.

      3.	 During the transmission, the enumerator’s HHC uploads collected questionnaire data to the
          telecommunication system at headquarters and headquarters downloads new assignments to the
          HHC.

      4.	 During the transmission, the OCS Database Server at headquarters receives questionnaires from the
          telecommunication system and sends new assignments to the telecommunication system. The OCS
          Database Server automatically accepts completed questionnaires or flags partially completed ones
          for supervisory review.

      5.	 Throughout the day, supervisors and crew leaders review reports generated by the OCS (Database
          Server and desktop Client) about the status of assignments. Then they allocate new or partially
          completed assignments to enumerators. These assignments are entered into the OCS Client and
          stored in the OCS Database Server.




                                                    8

U.S. Department of Commerce                                                                Final Report OIG-16949

Office of Inspector General                                                                        September 2004




A.	      Many HHC Functions Appeared to Work Well, but System Reliability and Map
         Response Time Must Be Improved

The enumerators we observed could generally use the HHCs to manage their assignments and
conduct interviews. While most aspects of these HHC functions seemed to work as intended,
HHC crashes�serious failures in which a program stopped processing or the HHC completely
froze or shut down�sometimes caused interview data to be lost. The map functions on the HHC
were underutilized, in part, because the map program was slow to start. The slow performance
of the maps hampered the bureau’s ability to assess their usability. 8

HHC assignment management and automated questionnaire capabilities appeared to work well

The bureau used its traditional recruiting, hiring, and training practices to build an enumerator
workforce that appeared competent in using the HHCs. The enumerators we observed were
generally able to manage their assignments and collect questionnaire data (see figure 4). Using
the HHC’s assignment management functionality, they navigated through a series of computer
screens to obtain the addresses of the housing units they were assigned to enumerate. The
enumerators then followed the automated questionnaire in English or Spanish, which allowed
them to proceed through the programmed sequences of interview questions and data entry
screens, and select options for handling exceptional cases, such as terminating an interview early.
Also, enumerators were able to use many other HHC functions—for example, reviewing their
work assignments and writing contact notes—that supported assignment management and
collecting questionnaire data. 9

HHC crashes caused interview data to be lost

HHC reliability needs to be improved. Crashes disrupted enumerators’ activities and reduced
their productivity. Enumerators lost time with each crash because they had to restart their work,
and even more seriously, sometimes lost questionnaire data. To obtain the lost data, enumerators
would have to reinterview the household, providing the occupants were willing.
To minimize the potential for data loss, Census had designed the HHC to save a backup copy of
the questionnaire data on its removable memory card. However, if the memory card was not
inserted properly or had other technical problems, collected data would be lost. Census therefore
programmed the HHCs to display a warning message notifying enumerators when data backup
was not occurring. From our observations, most enumerators who received this message
continued using the HHC rather than re- inserting the removable memory card properly or turning
in the HHC to the Local Census Office (LCO) to fix the backup problem, as instructed. One
enumerator told us that he lost 24 interviews by continuing to work after receiving a message
that the memory card was not working. The experience of this enumerator illustrates the


8
  International Standards Organization (ISO) 9241-11, “Guidance on Usability,” defines usability as the extent to 

which a product can be used by specified users to achieve specified goals with effectiveness, efficiency and 

satisfaction in a specified context of use.

9
  We did not comprehensively evaluate all HHC assignment management or automated questionnaire functions.





                                                       9

U.S. Department of Commerce                                                              Final Report OIG-16949

Office of Inspector General                                                                      September 2004


importance of having an HHC whose system compone nts are well integrated and resistant to
human error.

Figure 4: HHC Navigation to Assignments and Questionnaire




   1.	 Select NRFU from the start menu to get a list of assignment areas. Enumerator’s work is divided into
       geographic sections called assignment areas, each one containing about 40 addresses.
   2.	 Select an assignment area (AA) to get the address list.
   3.	 Select an address to start the automated questionnaire.
   4.	 Follow the script in the automated questionnaire and obtain answers.

Although not all computer crashes were recorded, and it could be difficult to determine the cause
of each crash, Census was able to correct at least one serious problem. Software design flaws
that were not identified in development or testing caused OCS to sometimes attempt to download
more data to the HHC’s removable memory card than the card could hold. Once Census
understood that this integration problem was causing the HHC to crash, a software change was
made to OCS to work around the problem.

Electronic map and “you-are-here” GPS functions were underutilized

HHCs are equipped with a customized commercial off- the-shelf electronic map program that
uses Census’s map database and GPS technology to display real-time maps and a “you-are-here”
position indicator. These functions are designed to assist enumerators in navigating to their
assignments by pinpointing their exact location and showing their movements. By replacing



                                                     10

U.S. Department of Commerce                                                 Final Report OIG-16949

Office of Inspector General                                                         September 2004


paper maps with electronic maps and navigational aids, Census officials expect to eliminate
costly printing, storage, and handling of paper maps and improve enumerator productivity by
reducing the time needed to complete assignments. However, during the 2004 test, enumerators
seldom used the electronic map and location functions. Consequently, these functions were not
adequately assessed, and their value will remain unclear until further testing is conducted.

In Queens, most enumerators we observed did not use the electronic maps to locate their
assignments because they either knew the area or could easily navigate the streets to find housing
units. Enumerators in Georgia were more likely to consult the electronic maps because finding
housing units in rural areas was more difficult. But even in Georgia, use of the maps was too
sporadic to assess their usability and the “you-are-here” function was seldom used at all.

The principal reason that the Georgia enumerators did not use the maps was because the process
of starting the map program and opening map files was very slow, taking minutes rather than
seconds. In fact, some enumerators in Georgia purchased paper maps rather than use the
electronic functions, at least in part because of their slow performance. Our own testing of the
HHC confirmed that the maps were slow to start, but we found that once the files opened, other
map functions—including the “you-are-here,” zoom, pan, and find address capabilities—
responded at reasonable speeds. We also found that the “you-are-here” feature accurately
pinpointed our position and showed our movements. However, since the HHCs had a tendency
to crash, enumerators who wished to use the maps and other navigation functions had to endure
the program’s slow startup every time they rebooted the system after a crash.

Enumerators were able to adequately follow procedures for collecting GPS coordinates

As part of 2004 NRFU operations, enumerators collected GPS coordinates near the main
entrance of a housing unit or building before starting an interview. The purpose of collecting
GPS coordinates was to help correctly locate every required residential and non-residential
structure with its address in the Census map database. In both Queens and Georgia, enumerators
initially had difficulty collecting coordinates during training, and two steps in the collection
procedure seemed particularly troublesome—(1) properly inserting the GPS receiver into the
HHC, and (2) positioning the HHC with an unobstructed view of the sky while standing near the
front door of a structure.

Once enumerators became familiar with the procedures, they generally appeared to follow them
and were able to obtain GPS coordinates. Still, some enumerators in Queens reported having
problems, such as when tall structures like apartment buildings surrounded their location,
obstructing a clear view of the sky. And in Georgia, enumerators we observed occasionally did
not follow collection procedures: for example, one consistently took GPS readings 15 or 20
yards from the front door of structures.

Census is conducting a separate GPS field evaluation to be completed by the end of September
2004 to determine the extent to which such deviations from procedures may have impacted data
accuracy. The bureau plans to use the results from this followup evaluation to refine GPS
collection procedures for the Census 2006 test.




                                             11

U.S. Department of Commerce                                                  Final Report OIG-16949

Office of Inspector General                                                          September 2004


B.     The Operations Control System Appeared to Support Automating NRFU

OCS is used for managing census field operations. The effective functioning of OCS is therefore
critical to the success of NRFU automation. OCS appeared capable of supporting NRFU
operations during the 2004 test including assigning cases to enumerators’ HHCs and processing
their questionnaire data, providing LCO managers with adequate information to control NRFU
operations, and promptly removing NRFU assignments from the HHCs for households that were
late in returning their census forms by mail. This last capability can potentially reduce costs by
eliminating a significant number of enumerator visits to households that mailed completed
census forms late.

We observed that crew leaders were able to assign work to enumerators’ HHCs: on a daily basis,
crew leaders, working from a list of all assignments in their district, could give the enumerators
new assignments by having a clerk at the LCO enter them into OCS. The new assignments
would then be downloaded to the enumerators’ HHCs during their daily transmission. OCS was
able to accept, or “check in,” the questionnaire data transmitted from the enumerators’ HHCs.
However, the bureau reported several failures in which data from about 1,200 assignments
(1 percent of the total processed) was not properly checked in, causing confusion about which
assignments were completed. According to Census officials, this problem occurred if an
enumerator entered too many characters in the questionnaire’s note field or when OCS did not
recognize the characters entered. It also occurred if the transmission account code in the HHC
and OCS did not match. Census officials told us they were able to fix this problem as the test
progressed.

From the checked-in questionnaires, OCS generated productivity reports on individual staff—
from field operations supervisors down to individual enumerators. We observed LCO managers,
field operations supervisors, and crew leaders using these reports to address production
problems. The system also flagged partially completed questionnaires for review by LCO
managers, who would decide whether to accept them, return them to the original enumerators
with instructions on how to complete them, or reassign the questionnaires to different
enumerators better suited to handle exceptional cases (for example, reassign a bilingual
enumerator to a household that did not speak English).

OCS was successful in removing assignments from enumerators’ HHCs for many households
that returned census forms after the start of NRFU. This reduced the number of unnecessary
enumerator visits and cut Census’s costs: the bureau reported that over 75 percent of the late mail
returns (LMRs) resulted in assignments being removed from enumerators’ HHCs in time to
avoid conducting an interview. While we did not confirm these numbers, we did observe that
numerous LMRs were downloaded to the HHCs.

C.     Transmission Problems Disrupted Training and Enumeration

Transfer of data between enumerators’ HHCs and the Census telecommunication system is
indispensable to the automation of NRFU. Enumerators were instructed to transmit daily to
ensure that Census headquarters had received all completed cases and enumerators had up-to­




                                              12

U.S. Department of Commerce                                                                  Final Report OIG-16949

Office of Inspector General                                                                          September 2004


date assignment lists. In the 2004 test, however, transmissions often failed, disrupting training
and enumerators’ activities, particularly during the first weeks of NRFU.

According to Census data, 84 percent of the reported transmission problems were due to user
errors. Many of these errors were precipitated by the lengthy transmission setup procedure.
Enumerators had to follow a multi- step process to transmit, which included properly setting
home telephone services (such as voice mail) to accommodate the transmission, connecting four
adapters and peripheral devices, 10 entering two passwords at different points in the process, and
checking to make sure the transmission was successful. Complicating matters were the
expansion battery pack and modem, which could be difficult to properly connect to the HHC.
Initially enumerators were not adept at checking whether the se peripheral devices were properly
connected. After it became apparent that enumerators were having difficulty with the set-up
procedure, both LCOs developed clearer guidance, and in Queens, conducted additional
transmission training.

Even when enumerators followed the setup procedure correctly, transmissions could still fail
because of malfunctions in the Census telecommunication system or problems with telephone
lines. The bureau reported that the rate of interrupted transmissions dropped from 20 percent
during the first 2 weeks of enumeration to 5 percent thereafter. 11

According to bureau officials, the initially high failure rate (20 percent) can be attributed to the
long time (about 30 minutes) needed to transmit new HHC software. The HHCs were shipped to
the two LCOs in January 2004—before the software programs were fully tested and finalized.
Because testing continued into April, the corrected version of the software was not available for
training field operations supervisors (beginning March 15) and crew leaders (March 29), or
initially for training enumerators (April 19). Consequently, the corrected software had to be
transmitted with the first work assignments during enumerator training, extending the length of
the transmission. Although Census was concerned about the impact of long transmission times
when planning for the test, it did not have a contingency plan to deal with failures when they
actually occurred.

Transmission problems prevented more than half of the enumerators in Georgia and two-thirds
of the enumerators in Queens whom we observed from receiving the corrected software or their
work assignments in time for the last 2 days of the 5-day training course. Even after the new
software had been successfully transmitted, transmission problems continued into the actual
NFRU operation, and were the main reason why enumerators had difficulty completing their
assignments during the first 2 weeks of NRFU.

During NRFU, the software on some HHCs was replaced again when technical support
personnel could not find any other way to correct malfunctions. The process of reinstalling the
software on the HHC was referred to as “reimaging.” The same long transmission times were


10
   Enumerators had to connect (1) the expansion battery pack to the HHC, (2) the modem to the expansion battery pack,
(3) the modem cable to modem and the telephone jack, and (4) the A/C adapter to the HHC and the home electrical outlet.
11
   These rates represent failures detected after users successfully connected with the Census telecommunication system.
Failed setup attempts are not included.




                                                        13

U.S. Department of Commerce                                                  Final Report OIG-16949

Office of Inspector General                                                          September 2004


again experienced while reimaging the HHCs. This problem was la ter resolved by providing a
copy of the software to the LCOs, allowing reimaging to be done without a transmission.

D.     Field Personnel Need Improved Technical Support

Due to technical flaws and user errors, enumerators will inevitably experience problems in using
their HHCs. Proficient technical support personnel must be available to help the enumerators
solve problems quickly so they can resume work promptly. The technical support in the 2004
test, however, did not provide enumerators with efficient and effective solutions to problems.

Enumerators and crew leaders were expected to troubleshoot simple HHC hardware, software,
and transmission problems by themselves. However, as discussed in finding II (page 20), they
were not trained in basic troubleshooting techniques that would have helped them diagnose and
correct simple problems. When unable to resolve a problem, enumerators and crew leaders were
to contact the LCO help desk for technical support: help desk staff would elevate problems they
could not resolve to the Decennial Regional Office computer specialist (DROCS), and—if still
more assistance was needed—the DROCS referred the problem to the Technical Assistance
Center at Census headquarters. This tiered approach was intended to resolve simple problems
quickly, reduce overall downtime, and reserve higher- level expertise for complex issues.

Help desk staff did not have the experience or receive adequate training to support operations.
Help desk personnel were screened and hired using the same test that was administered to
candidates for enumeration and general office positions. This test did not assess technical skills
or experience such as familiarity with software or computers—desirable attributes for technical
support personnel. Also, the help desk staff received only limited technical training—3 days of
enumerator training (including the use of HHCs) and 1 day of training on LCO systems: OCS,
Census Applicant Personnel and Payroll System (CAPPS), Property Management System, and
the commercial help desk support system used throughout the Census Bureau. However, of
these, only the HHCs and the help desk support system were relevant to the daily duties of the
help desk personnel.

Help desk staff did not have a way of gathering and distributing solutions to recurring technical
problems. The help desk support system has a knowledge-base capability, which could have
been used to collect and disseminate the best solutions for common problems, but Census did not
implement this capability. Instead, after NRFU operations had started, help desk staff at the
Queens LCO developed a guide describing solutions that had worked for frequently occurring
problems.

Finally, help desk procedures were not designed for operational efficiency. When large-scale
HHC transmission or other difficulties occurred, help desk personnel frequently could not
resolve them over the phone. As a result, enumerators had to bring their HHCs to the LCO for
repair, where they often waited several hours for their handheld computers to be fixed. Help
desk staff often could not identify specific solutions to problems, so as a last resort, they would
reimage the HHC software. As noted previously, reimaging was time consuming at first,
requiring up to a 30- minute transmission. Another time-consuming repair procedure was needed
when enumerators were denied access to their HHCs because of password problems. In such




                                              14

U.S. Department of Commerce                                                  Final Report OIG-16949

Office of Inspector General                                                          September 2004


instances, the handheld computers had to be completely reimaged, rather than simply restored to
functionality via a master password.

CONCLUSION

Census officials are learning a great deal about the HHCs and associated systems from the 2004
test. The test demonstrated that HHCs and related automation are promising replacements for
paper-based NRFU. The enumerator workforce�hired, recruited, and trained using the bureau’s
traditional practices�was able to use the HHCs. HHC assignment and questionnaire functions
generally appeared to work well, as did the OCS workflow functions that we observed.
Enumerators were generally also able to follow procedures and collect housing unit GPS
coordinates, although the bureau must still determine their accuracy.

Transmission problems and inadequate help desk support were the main reasons for the serio us
disruption of the NRFU operation and will require the design of alternative approaches for future
tests and the 2010 Census. The delivery of inadequately tested HHC software to the field and the
consequent need to transmit corrected software during enumerator training stressed the
telecommunication system, and was a major contributor to the transmission problems and their
attendant disruptions. HHC crashes and loss of data were also disruptive. Indeed, technical
problems lowered enumerator productivity, and managers at the Queens LCO believed that
technical problems led to a higher than expected enumerator attrition rate. Moreover, the slow
performance of the electronic maps has prevented the bureau from assessing them and the other
navigation aids in the 2004 test.

Census officials have stated that they are aware of the risks and complexities of transmissions
and that they do not intend to use the same approach in 2010 as was used for the 2004 test. They
acknowledged that even transmitting at the 95 percent success rate ultimately achieved in the test
would not be acceptable�with more than 500,000 enumerators transmitting in 2010, this level
of reliability would result in more than 25,000 transmission failures daily. Census needs to plan
contingencies for essential NRFU components, like transmissions, whose failure would
jeopardize field operations.

In improving technical support, the bureau should use screening methods for technical support
personnel that identify the needed aptitudes for operating the help desk function. Help desk staff
should be provided with training that focuses on anticipated problem areas and entails hands-on
work with HHCs so they are familiar with the hardware, software, and significant operations of
the device; and they must be given the tools needed to resolve problems efficiently. Although
the tiered approach to technical support� successively elevating unresolved problems to
personnel with more expertise�was intended to promote efficient use of resources, our
observation of the 2004 test suggest that alternative models need to be considered to minimize
enumerator downtime�for example, having a limited troubleshooting capacity in the LCOs,
supplemented by a call center capability staffed by more highly-skilled personnel that
enumerators could call directly when assistance is needed.

Many of the reliability and usability problems we observed—frequent HHC crashes, loss of
questionnaire data, slow response times, and problems connecting peripheral devices (memory



                                              15

U.S. Department of Commerce                                                   Final Report OIG-16949

Office of Inspector General                                                           September 2004


cards, modems, expansion battery packs)—can be avoided or mitigated by improved system and
software engineering practices: better requirements specification, design, integration, and testing.
Most fundamentally, the bureau must prepare specifications that not only identify functional
requirements but also stipulate performance and human factor needs such as the necessary
degree of reliability, acceptable response times, easy-to-connect peripherals, and straightforward
user procedures. The HHC must be designed to limit the possibility of both human and system
errors and to handle unanticipated errors in the least disruptive manner possible.

The bureau plans to contract for development of the field data collection systems for the 2008
Dress Rehearsal and the 2010 Census. Although contracting can help bring the necessary system
and software development expertise and management discipline, Census still faces tremendous
challenges in captur ing lessons learned from the 2004 and subsequent tests; defining complete
and verifiable system requirements; preparing the solicitation; selecting a competent contractor;
and overseeing the contract so that systems are fully developed, tested, and finalized before
operations begin.




                                              16

U.S. Department of Commerce                                                   Final Report OIG-16949

Office of Inspector General                                                           September 2004


II. 	   NRFU TRAINING IMPROVEMENTS ARE NEEDED

Key to the success of the 2004 test was how well the bureau prepared the 1,100 enumerators to
conduct automated nonresponse followup. We evaluated how well the training appeared to
prepare the enumerators to conduct NRFU—attending 10 of 36 classes held throughout the
Queens area and 5 of 8 classes conducted in Georgia, and then observing 31 enumerators at work
in the field during the first 3 weeks of NRFU. The bureau’s training approach generally
appeared to teach enumerators how to perform their duties using handheld computers, but
enhancing certain aspects of the training and adding a component on HHC troubleshooting could
improve their overall performance. In addition, some of the 15 training facilities we visited
lacked adequate infrastructure—sufficient electrical outlets and functioning telephone lines—to
support training on the handheld computers. Because of the increased requirements for training,
the space that accommodates it must have an adequate infrastructure to support the training, or in
the event that the space lacks some of the necessary features, management must ensure that
adequate training can take place.

A.	     Enumerator Problems Observed During NRFU May Be Linked to Weaknesses in
        Training

For the 2004 test, the bureau used its traditional recruiting,
hiring, and training practices to build an enumerator 	          “The best indicator of the
                                                                 effectiveness of employee
workforce that appeared to be competent in using the             training programs is the degree
HHCs. For this test, as in the past four decennial censuses,     to which the skills taught in
the bureau used a “verbatim” training methodology,               training are demonstrated on
                                                                 the job.”
whereby recently trained crew leaders read word for word
from a training manual to teach a class of 15 to 20 students
how to conduct NRFU operations, including locating               Excerpted from Nonresponse
households, completing questionnaires, and tracking work         Follow-up (NRFU) Enumerator
                                                                 Training, Census 2000 

hours. In shifting from paper and pen to an automated            Evaluation H.7, March 28, 2003.

process, the bureau expanded the 3 days of training to 5 

days. 


We found that most enumerators were generally able to use the HHCs to conduct interviews and 

perform other required functions, and were generally knowledgeable about the nonresponse 

followup process. However, we observed that a number of them improperly executed various 

NRFU procedures. Although we do not have any quantifiable measure of how widespread the 

problems were, we observed enumerators who did the following:


•	 Obtained questionnaire information via proxy interviews before making the requisite number
   of visits to the assigned household.
•	 Omitted the age question.
•	 Reworded the survey questions concerning race and ethnicity.
•	 Made and recorded race and ethnicity determinations without asking the respondent.
•	 Disregarded the “respondent flashcard booklet,” which was designed to assist the respondent
   with answering census questions.
•	 Failed to leave a “notice of visit” form at households where no one answered.



                                               17

U.S. Department of Commerce                                                        Final Report OIG-16949

Office of Inspector General                                                                September 2004



•     Recorded respondent data on paper and then entered it into the HHC.
•     Failed to document problems with their handheld computer.
•     Failed to transmit data daily.

Some of the problems appear to be systemic and may be linked to weaknesses in training, as the
bureau also identified them in its internal evaluation of Census 2000 training.

Methods to supplement verbatim training for HHCs and other NRFU procedures should be
considered

More than a half million temporary workers were hired and trained to conduct NRFU in 2000.
As in the previous three censuses, the bureau used verbatim training in 2000 in order to help
minimize costs and ensure uniform instruction across the hundreds of LCOs and thousands of
training classes. Verbatim training was used for NRFU in the 2004 test as well, although
training requirements have become more challenging: enumerators with various levels of
expertise, including no computer experience at all, must learn how to operate the HHC and
perform automated procedures, in addition to mastering the other requirements of the NRFU
operation.

Figure 5: Enumerator Training Class 	     Although all enumerators had their own HHC during
                                          training, they were unable to see the crew leader’s handheld
                                          computer, as shown in figure 5, causing some to have
                                          difficulty following the procedures being taught. Some of
                                          the field operations supervisors and enumerators we spoke
                                          with said their understanding would be facilitated if the class
                                          could observe an HHC proceeding through the various
                                          NRFU steps as they were being explained. Some
                                          enumerators commented that a trainee’s confusion about
                                          HHC terminology (for example, one trainee told us she did
                                          not understand the term “icon”) or a trainee’s inability to
                                          keep up with the sequence of screens being presented caused
    Some trainees had difficulty
    keeping up because they could not     classes to lag behind schedule.
    see the instructor’s actions on the
    HHC. (Instructor is in center of  In addition to the difficulties in using verbatim training for
    photograph.) 	                    HHCs, this training method may also have resulted in some
                                      of the enumerator problems we observed that were not
related to the handheld devices. Some enumerators appeared disinterested or bored in class,
obviously not paying attention, and in one class we observed, actually falling asleep.
Enumerators we spoke with told us that they found classroom training to be slow and
uninteresting, and that lapses in their concentration occurred. Consequently, some enumerators
may have failed to learn how to conduct important NRFU procedures.

We discussed the possibility of using alternative methods for training enumerators with bureau
officials, who emphasized that the cost-benefit ratio of changing the training format must be
considered. The bureau has recognized the need to improve its training, however. Its own
evaluation of Census 2000 NRFU enumerator training recommended that additional media such



                                                    18

U.S. Department of Commerce                                                   Final Report OIG-16949

Office of Inspector General                                                           September 2004


as audiotapes, videos, flip charts, posters, and slides be included. Moreover, to help address its
future training needs, the bureau has hired a contractor to evaluate the training for the 2004 test
and provide recommendations for improving it. Over the past 10 years, enumerators have used
laptop computers in field enumeration for some of the bureau’s non-decennial survey operations.
Verbatim training is used in conjunction with interactive (multi- media and computer-based)
methods for these enumerators, and the bureau believes this combination of methods has
enhanced their proficiency with the technology.

Given the issues identified with verbatim training in the 2000 Census and the 2004 test, as well
as the bureau's success with interactive training methods in its survey operations, it is advisable
for the bureau to explore whether cost-effective methods to supplement verbatim training can be
developed and tested for use in the 2010 Census.

Better preparation for handling reluctant respondents is needed

Enumerators’ most frequent complaint about NRFU training was that it failed to prepare them
for how they should deal with people unwilling to cooperate. Reluctant respondents were a
concern in the 2000 decennial, and a bureau evaluation recommended incorporating more role-
playing as practice for handling difficult respondents.

The NRFU Enumerator Manual for the 2004 test provided enumerators with only a few
statements regarding respondent refusals, generally advising them to be prepared to explain why
the follow- up operation is necessary and how the data will be used, and offering the answers to
these questions. And while the manual stressed that enumerators should encourage respondents
to answer as many questions as possible, it offered no special guidance for convincing reluctant
respondents to fully cooperate. Bureau officials stated that earlier versions of the training
manual had incorporated reluctant respondent role-playing. However, that section was
eliminated after initial testing because those exercises were found to be confusing.

During our observations, we witnessed that some enumerators were self-assured and persistent,
while others appeared to be easily intimidated when faced with reluctant respondents. Watching
persistent enumerators showed us how even the most reluctant person could be convinced to
cooperate. The bureau should consider revising its role-playing exercises based on 2004 and
prior experiences. In addition, this area may be well suited for using multi- media training
methods. Bureau officials agreed that given the number of homes with a VCR or DVD player,
perhaps viewing alternative approaches for handling reluctant respondents as an enumerator
homework assignment could help address this on-going problem.

Prepared scripts for explaining awkward questions should be considered

Sound survey methodology requires that questions be asked in a consistent manner in order to
minimize the potential for biased responses. The original survey questionnaire mailed to
households in the 2004 test was a paper document that respondents read on their own and
answered. To ensure consistency, enumerators conducting in-person interviews must pose the
same questions exactly as they appear on the paper questionnaire that was sent through the mail.
Enumerators are instructed not to deviate from the script that appears on their HHC. However,




                                              19

U.S. Department of Commerce                                                 Final Report OIG-16949

Office of Inspector General                                                         September 2004


some written questions become awkward when spoken. Figure 6: Hispanic Origin and Race
During the 2004 test, questions whose answers seemed Questions
obvious appeared to make some enumerators and            I am going to ask you two questions,
interviewees uncomfortable and may have affected how     one on Hispanic origin and one on
or whether enumerators posed them. For example, we       race. Please answer both questions.
observed some enumerators skipping the Hispanic
                                                         Are you of Spanish, Hispanic or Latino
origin question as shown in Figure 6, supplying the yes
                                                         origin? (Respondent answers No)
or no answer depending on the neighborhood and
respondent appearance, and in some cases, filling in the Using this list, please choose one or
race category without asking. Frequent changes in        more races that you consider yourself
verbiage or failure to ask a question could impact the   to be.
                                                            White
integrity of the entire body of collected data.             Black or African American or Negro
Enumerators should be given additional training and         American Indian or Alaska Native
some explanatory script to prepare respondents for such     Asian Indian
questions and the need for asking them during the           Chinese
interview process.                                          •
                                                             •

Crew leaders and enumerators should be trained in basic HHC troubleshooting techniques

Although enumerators and crew leaders were expected to troubleshoot simple HHC hardware,
software, and transmission problems by themselves and the HHC handbook contained a section
on troubleshooting and problem solving, the verbatim training guide used by instructors did not
cover the troubleshooting techniques. The hands-on portion of the HHC training was disrupted
for many enumerators because of technical problems, as noted in finding I. Some of these
problems were simple enough for crew leaders and enumerators to have diagnosed and corrected
themselves had basic troubleshooting techniques been covered in class. For example, more of
the limited hands-on training time would have been available for gaining practical experience if
crew leaders and trainees had been aware of techniques to properly connect the peripheral
devices (e.g., modem, GPS) to the HHCs. We suggest that the bureau add an HHC
troubleshooting component to the training for the 2006 test, the 2008 dress rehearsal, and 2010
decennial training.

CONCLUSION

Effectively training over a half million temporary workers is a major challenge in conducting a
decennial census, which the bureau has traditionally addressed using rigidly scripted training.
Some problems we observed during NRFU operations are systemic and long-term, from
enumerators answering respondent questions to inadequately handling reluctant respondents.
Introduction of the HHC has made training even more difficult, particularly because of the need
to train enumerators having little or no familiarity with computers. To improve training and
mitigate some the problems we observed, the bureau could consider employing cost-effective
alternative training methods, such as multi- media and computer-based training, to supplement
the verbatim technique, and preparing alternative scripts or explanations for asking awkward
questions.




                                             20

U.S. Department of Commerce                                                  Final Report OIG-16949

Office of Inspector General                                                          September 2004




B.     New Training Requirements Increase Challenges in Obtaining Adequate Space

In order to contain costs, the bureau traditionally looks for donated or inexpensive space at
churches, schools, and community centers to conduct enumerator training. In addition to
increasing the training time from 3 to 5 days to include HHC training in the 2004 test, the bureau
sought space with enough electrical outlets to plug in power strips for maintaining the charge on
enumerators’ HHCs during classroom training and with one or more telephone lines for making
transmissions during class. Bureau officials told us that finding training sites with adequate
space, lighting, ventilation, and accessibility has always been difficult and has become even
harder because of increased training requirements for HHCs.

The Queens LCO struggled to find 36 free training sites that were available for 5 consecutive
days and adequately equipped with telephone lines and electrical outlets. Some sites in Queens
lacked telephone lines capable of handling HHC transmissions, and others had no phone lines at
all. In Georgia telephone lines in 2 of its 8 locations could not handle HHC transmissions.

In addition to some space not being well-suited to HHC training, a number of enumerators stated
in their evaluations of the training that the sites had poor lighting, cramped seating,
uncomfortable and uncontrollable room temperatures, and distractions from nearby classes,
groups, or activities. Consequently, some enumerators had difficulty hearing or seeing the
instructor and experienced general discomfort.

The bureau used teams of field and office operations supervisors and clerks from the LCOs to
identify and select the 44 training sites. In the 5 months before the 2004 test, teams looked for
suitable training sites using the bureau’s “Testing/Training Space Worksheet” as a guide.
However, team members pointed out that some sites were selected without a visit, relying solely
on a description of the facility obtained through phone conversations. The contractor evaluating
the training also confirmed that site selection team members chose at least two of the Queens
sites without advance visits.

CONCLUSION

Because of the increased requirements for training, the space that accommodates it must have an
adequate infrastructure to support the training. Since the bureau attempts to use free or low-cost
space, some of the training sites will inevitably lack desirable features. Consequently, the
process for obtaining the training sites must ensure that the facilities accommodate technology
requirements. In the event that the space lacks some of the necessary features, management must
ensure that adequate training can take place.




                                              21

U.S. Department of Commerce                                                                Final Report OIG-16949

Office of Inspector General                                                                        September 2004


III.    TEST OF REVISED GROUP QUARTERS DEFINITIONS WAS HAMPERED BY 

        INSUFFICIENT PLANNING


For purposes of enumeration, the Census Bureau            Living quarters (LQ) are places where people live or
divides the U.S. population into two distinct             stay or could live or stay and include two categories –
                                                          housing units and group quarters.
groups: (1) those that occupy housing units and
(2) those that reside in group quarters. Census           Housing units (HU) are living quarters including a
                                                          house, apartment, mobile home, or group of rooms, or
2000 counted 7.8 million people, or 2.8 percent           a single room that is occupied as separate living
of the population, living in group quarters.              quarters, or if vacant, intended for occupancy as
                                                          separate living quarters.

Enumerating group quarters is a complex and               Group quarters (GQ) are living quarters that are not
                                                          housing units and include organized communal living
meticulous undertaking accomplished by                    situations such as college dormitories, residential
operations different from those that enumerate            treatment centers, half -way houses, hospices,
                                                          hospitals, nursing homes, military barracks, prisons,
housing units. After identifying all facilities that      juvenile institutions, migrant worker dormitories, and
qualify as group quarters, the bureau attempts to         facilities for people experiencing homelessness.
classify each facility by category to determine           Other living quarters (OLQ) is a term used in the field
the best approach for enumerating its residents.          operations that canvass all addresses to qualify
                                                          structures that are not obviously housing units but
For example, college students must be                     likely to be group quarters. Operational instructions
enumerated before they leave campus; and,                 define OLQs as places where people live or stay that
                                                          are normally owned or managed by an entity or
enumeration of nursing homes, homes for                   organization prov iding services and care for the
battered women or the mentally handicapped,               residents. These services may include custodial or
                                                          medical care, as well as other types of assistance, and
prisons, and others must be coordinated with              residency is commonly restricted to those receiving
administrators and caregivers. Accurate group             services. The instructions further explain that OLQs
                                                          are usually not family oriented; that is, the people living
quarters enumeration is important because                 in them are not considered to be members of a
results affect official census counts and provide         household. Examples of OLQs include:
                                                          •     Correctional institutions
data helpful to communities.                              •     Juvenile institutions
                                                          •     Nursing homes
                                                          •     College and university housing
As presented in its Census 2000 evaluation12 and          •     Dormitories for migrant workers
reported elsewhere, group quarters enumeration            •     Assisted living housing
                                                          •     Religious living quarters
posed significant problems for the bureau during
the last decennial. For example, communities              However, in the 2004 test, OLQs were not to include
                                                          one type of group quarters—group homes.
reported that residents of prisons containing
several thousand inmates were not included in             Group homes or halfway houses are group quarters
                                                          that include community-based homes providing care
their population but were included erroneously            and supportive services for the mentally ill, mentally or
in another location. As a result, populations             physically handicapped, drug/alcohol halfway houses
were overcounted in the misidentified                     not linked to prisons, and other social services, and
                                                          communes. In the 2004 address canvassing
community and undercounted in the correct                 operation, group homes were to be designated as
community, which then may have qualified for              housing units rather than as OLQ because, although
                                                          group quarters, they often resemble housing units.
less federal funding.

The bureau acknowledges that a sizable number of group quarters were associated with the
wrong location in the bureau’s map database. In addition, group quarters were being duplicated
as both group quarters and housing units because different operations maintained their respective
inventories. In particular, the bureau found that off-campus college housing and group homes
12
  Special Place/Group Quarters Enumeration, Census 2000 Topic Report No. 5, Census 2000 Testing,
Experimentation, and Evaluation Program, U.S. Census Bureau, February 2004.



                                                  22

U.S. Department of Commerce                                                                         Final Report OIG-16949

Office of Inspector General                                                                                 September 2004


were often difficult to distinguish from housing units, so they would sometimes be inventoried as
both. The evaluation recommended modifications to resolve these and other issues and enhance
the accuracy of group quarters counts. To work toward fulfilling these recommendations, the
bureau revised the address canvassing that took place at the Queens site in late summer 2003,
group quarters operations, and the definitions of some group quarters. Aspects of the new
approach incorporated into the 2004 test included:

•	 Listers in the address canvassing                      Figure 7: Relationship among housing units, group
                                                          quarters, group homes, and other living quarters
   operation worked off a single list that
   contained both housing unit and group 
                Housing Units                                 Group Quarters
   quarters addresses (rather than separate 
                The vast majority of
                                                                                            Other living quarters were
   lists of each, as in the past) and 
                      housing units were listed,     structures found by address
                                                             enumerated, and counted as     canvassers to contain group quarters
   interviewed a resident at every address 
                                                --except for group homes. Overlap
                                                             housing units.                 with housing units occurred when
   (rather than every third address as in 
                                                 group quarters and housing units,
   Census 2000) to verify the address itself 
                                              such as a caregiver’s apartment,
   and its assigned census block 13 in the 
                                                shared the same structure.

   bureau’s address database.
                               Group homes were to be               Group homes were to be
                                                             listed and enumerated as             counted as group quarters
                                                             housing units because of             when processing responses.
•	 Listers were supposed to classify each                    their resemblance to housing
   address as either a housing unit or “other                units.

   living quarters” (OLQ). A structure was
   to be classified as an OLQ if it obviously contained group quarters. The test approach,
   summarized in figure 7, also included classifying group homes as housing units rather than as
   OLQs because they are not obviously group quarters but, instead, often look like hous ing
   units. Address listers were instructed that OLQs are not always easily identified by their
   physical structure and were provided with a list of OLQ types (e.g., correctional institutions,
   juvenile institutions, nursing homes). They were also instructed that an OLQ might be
   obvious if the name of the facility identifying the OLQ is posted on a sign outside the
   structure.

•	 In an operation called “group quarters validation” (GQV), which took place in early 2004 at
   both the Queens and Georgia test sites, listers visited each OLQ address in Queens and each
   group quarters found in Census 2000 in Queens and Georgia to verify that the structure
   belonged in the group quarters universe, as well as find any other associated group quarters,
   such as additional prison pods, migrant worker dormitories, or hospital wards, not already on
   the bureau’s list. If the structure did not belong in the group quarters universe, it was
   reclassified as either a housing unit or not a living quarter; if a housing unit was found in part
   of the structure, such as a caregiver’s apartment, it would be added as a housing unit if not on
   the list already.




13
  A census block generally is a small area bounded by a series of streets, roads, railroads, streams,

bodies of water, or other visible physical and cultural features, and some legal boundaries. Census blocks are the 

smallest geographic area for which the bureau collects and tabulates decennial census data. 




                                                       23

U.S. Department of Commerce                                                 Final Report OIG-16949

Office of Inspector General                                                         September 2004



•	 The bureau broadened the group quarters off-campus student housing definition, which
   previously included only university-owned facilities, by adding those leased by the university
   as well. The definition continued to exclude housing leased by students from private owners.

We found that the 2004 test did not adequately further the bureau’s goal of distinguishing group
homes from housing units, nor did it test university-leased, off-campus student housing.

A. 	   Late Delivery of and Ambiguity in Group Quarters Definitions Undermined Listers’
       Ability to Accurately Categorize Residences

We found that address canvass listers were not properly prepared to make the distinction
between housing units and other living quarters, as the bureau had not fully incorporated those
distinctions into the listers’ instructions and training materials.

New group quarters requirements were not documented in training materials

In order to correctly determine whether a residence qualifies as a housing unit or should be
designated as an OLQ, listers must understand the bureau’s instructions for making that
determination when they begin their address canvassing. However, we learned that Census had
not finalized the requirements for the new
definitions before listers’ canvassing instructions
and training manuals had been prepared. As a
result, the training manual did not provide
adequate instruction on determining whether a
structure is a group home that should be
categorized as a housing unit, not as an OLQ.
Adequate instruction was also not provided on how
to contact the administrator of an unmarked group
home where it would be inappropriate or disruptive
to interview the residents, such as a home for         From outward appearance, one of these
mentally handicapped adults or battered women          brownstones could easily be mistaken as a
and their children. However, even if the               housing unit instead of being correctly
instructions had been clear, as discussed below,       identified as a group home.
bureau analysts decided that this approach would
not be workable.

2004 test approach for handling group homes is unworkable

The bureau’s approach to handling group homes has been evolving since Census 2000, as
summarized in table 1, and a workable approach was not developed in time for the 2004 test. In
Census 2000, the bureau found it difficult to distinguish between unmarked group homes that
provide formal care for people with special needs (e.g., physical, mental, or emotional
disabilities, halfway houses) and housing units in a residential area. For the 2004 test, Census
had intended to evaluate definitions that allowed this particularly problematic type of group
quarters to be better identified and counted. However, the bureau working group developing the
requirements for the new definitions was unable to fully vet them before the deadline for




                                             24

U.S. Department of Commerce                                                            Final Report OIG-16949

Office of Inspector General                                                                    September 2004


receiving and incorporating them into test procedures and training materials. Census therefore
decided to implement an interim definition in the test: address canvass listers were to designate
group homes as housing units rather than as other living quarters unless a facility was clearly
identified as the latter by, for example, posting its name on an outdoor sign. The plan was to
determine from the questionnaire completed by the residents whether residents in the group
home were receiving formal care and thus whether the residence should be reclassified as a
group home and counted with group quarters, not with housing units.

Table 1: Summary of Evolution of Bureau's Handling of Small Group Homes

Activity                      Description
Census 2000 Address           Canvass operations used separate housing unit and group quarters address lists;
Canvass Operation             however, this led to duplication.

Group Quarters Working        Using a single address list:
Group Design of 2004 Test     • listers were to designate living quarters that were not housing units —i.e.,
                                  group quarters —as other living quarters, except
                              • group homes that resembled housing units were to be designated as housing
                                  units.
                              Subsequently:
                              • the bureau would recognize from the questionnaire responses that many
                                  unrelated people residing in the group home were receiving formal care, and
                              • the structure would be reclassified as a group home and counted with group
                                  quarters, not with housing units.

2004 Test Address Canvass
                              Listers actually designated all group homes as other living quarters.
Operation

Group Quarters Working        •   Designing one questionnaire that would elicit accurate responses from both
Group Conclusion:                 housing units and group homes and allow the different types of group
                                  homes to be identified was not feasible.
                              •   For 2006 Test, all group quarters are to be designated as other living
                                  quarters.


While the 2004 test was in progress, the working group continued its discussions and decided
that this approach would not work because it would be too confusing for the residents of both
housing units and the unmarked group homes now in the housing unit universe to decipher a
questionnaire designed to accommodate both. In addition, according to a bureau official,
interviewing group home residents instead of following appropriate procedures for contacting the
administrator would be intrusive and could negatively impact data accuracy. Finally, Census
concluded that it would be difficult to devise a method for determining whether a ho using unit
was really a group home after the data had been collected and even more difficult to accurately
classify what type of group home it was (i.e., for the mentally ill, physically handicapped,
halfway house, etc.). Its final decision was to list and enumerate unmarked group homes as
group quarters. But since the 2004 test was already under way, it was too late to implement the
decision.

As it turned out, the instruction to designate only clearly marked group homes as other living
quarters and all other group homes as housing units proved confusing to listers. As a result,



                                                  25

U.S. Department of Commerce                                                      Final Report OIG-16949

Office of Inspector General                                                              September 2004


listers categorized group homes as OLQs, an approach the bureau now plans to implement in the
2006 test. In future tests, instructions for address canvass listers to categorize structures,
including unmarked group homes, as OLQs must be fully developed in a timely fashion and
consistent with the final definition of group homes. In addition, these instructions need to
include methods such as using local knowledge to enable the listers to identify group homes and
contact the administrator with minimal disturbance to the residents.

CONCLUSION

The evolution of the definition for group homes was not synchronized with the milestone for
delivering requirements to develop instructio ns for address canvassing. Requirements for an
interim definition that identified group homes as housing units during address canvassing were
delivered late and not adequately implemented in the instructions to the address listers.
Furthermore, the definitions evolved after delivering the requirements for the test so what was
tested did not reflect a stable definition. For the 2006 test, the bureau needs to solidify the
definition and deliver the requirements early in the development of the operational instructions
so address canvassing can correctly implement the definition to identify group homes.

B.     Test Sites Contained No University-Leased Off-Campus Housing

To improve on its efforts to enumerate students
living in off-campus housing, the bureau intended
to test a revised definition that added off- campus,
university-leased buildings to the category that in
the past had counted only off-campus buildings
owned by a college or university. However,
neither test site offered the variety of off- campus
student housing situations needed to clarify the
range of issues the bureau must consider in
enumerating this population (e.g., temporarily
                                                        The apartment building above is an example of
leased space such as a hotel to handle short-term       how off-campus student housing can be difficult
overflow or an option to live in a university-          to recognize as group quarters rather than as
leased, apartment- like setting). The Queens site       housing units.
contained no colleges or universities, nor did the bureau find any university-leased off-campus
student housing at that site. The Georgia site did contain two colleges, but neither provided the
conditions for testing the revised definition: one was a 2-year residential college that maintained
only on-campus housing; the other was a 4- year commuter college that owned and operated only
one off-campus residence hall on 2 acres nearby. While the bureau had intended to test this ne w
definition in the 2004 test as a key part of its group quarters objective, the choice of test sites
prevented it.

In Census 2000, cities also raised the question of whether off-campus, privately-owned housing
leased to students should have been classified as group quarters, which would require the bureau
to broaden its definition of college housing beyond its 2004 test rendition. Moreover, to ensure
that students residing in these privately-owned residences are enumerated before the end of
spring semester, it would be advantageous for them to get similar attention as students in housing




                                                26

U.S. Department of Commerce                                                   Final Report OIG-16949

Office of Inspector General                                                           September 2004


provided by the university in order to enumerate them before they leave campus. However,
bureau officials stated that privately-owned housing intended for students sho uld not be included
in group quarters because it could also be leased to families and then would be considered
housing units. While not agreeing that this type of housing should be included in group quarters,
they did agree that for success in enumerating students residing in such housing, the bureau
should consider handling the enumeration similarly to the group quarters’ categories.

CONCLUSION

For future census tests, the bureau needs to better correlate its objectives with the choice of test
sites. For the 2006 test, the sites have already been chosen. However, while we recognize it will
not change their location at this point, the bureau can assess whether these sites need to be
expanded in order to meet its group quarters objective or whether it should find an alternative for
testing these objectives. The bureau should also determine whether the optimal approach to
accurately locating and enumerating students is being tested.




                                               27

U.S. Department of Commerce                                                                Final Report OIG-16949

Office of Inspector General                                                                        September 2004




IV.	        RECRUITING AND PARTNERSHIP EFFORTS WENT WELL AND QUALITY
            ASSURANCE METHOD WAS IMPROVED OVER CENSUS 2000

The success of the decennial census in counting the entire U.S. population is tied to the
efficiency and effectiveness of all its component operations. During our review we noted that
certain operations ran well. The recruitment and partnership efforts promoted overall awareness
of the census operation in the test locations, which helped both sites meet their recruitment goals.
Queens met its mailed-in questionnaire response rate goal, while Georgia fell slightly below the
targeted response rate. The new quality assurance operation successfully isolated the reinterview
process from field operations, which should contribute to the accuracy and completeness of
collected data.

A.	         Recruiting and Partnership Operations Achieved an Adequate Pool of Candidates and
            Garnered Local Support

The assistant manager for recruitment and the partnership specialist at each test site were jointly
responsible for establishing local partnerships with governments, organizations, businesses, and
the media to promote awareness of the census test, attract enumerators, encourage return of
census questionnaires, and foster residents’ cooperation with nonresponse followup.

                               The bureau established specific recruitment and mail response goals
      Mail Response Rate*
                               for the two test sites. Within the LCOs, the partnership specialist and
               Georgia         recruitment manager contacted organizations and handed out
        Goal        Actual     brochures and posters publicizing the test and related employment
        50%          46%
                               opportunities. The materials were carefully targeted for the two
               Queens          locations. For example, in the Queens test site, an estimated 61
        Goal       Actual      percent of the population is foreign born. Thus, materials were printed
        40%         42%
                               in 15 languages to ensure that information reached all segments of this
     *As of July 16, 2004      multicultural community. Queens exceeded its questionnaire mail-
                               back rate, while Georgia was 4 percentage points shy of its goal.

To ensure an adequate number
                                                                   Enumerator Recruitment
of qualified candidates, 14 more
applicants must be recruited                           Total No.      Number of Qualified Applicants
and tested than needed. Both                          Applicants       Goal             Actual         No. Hired
                                          Georgia       1,545          1,215            1,242            232
Queens and Georgia met their              Queens        5,006          3,865            3,886            925
recruitment goals.

The recruitment staff and partnership specialist played an important role in the success of the
2004 test.


14
  For example, applicants must take a written test, meet local and state employment age requirements, possess a
valid Social Security number, and provide U.S. citizenship documentation (although in locations where bilingual
ability is needed, noncitizens with documentation of employment eligibility are considered when qualified citizens
are not available).



                                                      28

U.S. Department of Commerce                                                         Final Report OIG-16949

Office of Inspector General                                                                 September 2004


B.      New Quality Assurance Operation Supports Data Integrity

To ensure the accuracy of data collected during NRFU, each LCO conducts “reinterviews”:
quality assurance enumerators contact a sample of previously enumerated households. This
quality control operation is designed to detect and deter data falsification and identify
enumerators who are not following procedures. The reinterview process was under the
management of the assistant manager for field operations in Census 2000. However, problems
with data falsification during the census 15 prompted the bureau to separate the reinterview
process from NRFU field operations. Beginning with the 2004 test, this quality control operation
has its own assistant manager for quality assurance (AMQA), who reports directly to the LCO
manager. The AMQA’s staff includes a reinterview crew leader, reinterview crew leader
assistants, reinterview enumerators, clerks, and office operation supervisors.

To ensure the integrity of the process, the quality assurance training manual needs to clarify the
authority of the assistant manager for quality assurance. The “AMFO/AMQA Responsibilities”
manual accords the AMQA authority for investigating possible falsification or poor-quality
enumeration, but the procedures for fulfilling this role often require the AMQA to seek answers
regarding irregularities from field operations management rather than from crew leaders and
enumerators. These procedures are repeated in the “2004 NRFU Reinterview MaRCS LCO”
manual as well.

We observed, however, that the Queens and Georgia LCO management interpreted the AMQA’s
authority differently. Georgia managers initially instructed the AMQA not to contact crew
leaders or enumerators directly, but instead to route quality assurance requests for information
through the assistant manager for field operations. In addition to being time-consuming, this
process makes it possible for field operations managers to minimize problems, thereby avoiding
any additional work for field operations. We were told in our final interview with Georgia’s
AMQA that LCO management changed its position on this issue four or five weeks into the
NRFU operation and allowed the AMQA to contact crew leaders and enumerators directly when
there was a question. In Queens, the AMQA was always allowed to contact crew leaders and
enumerators as long as the AMFO was kept informed. The ambiguities in the training manuals
that permit these different interpretations of AMQA authorities should be eliminated to ensure
the consistency, integrity and independence of the quality assurance process.

CONCLUSION

While the assistant managers should work cooperatively to achieve the LCO’s goals, the training
manuals should clearly describe the role of the AMQAs and their authority to independently
conduct quality assurance operations to ensure data integrity during the Census.




15
  Re-enumeration at Three Local Census Offices in Florida: Hialeah, Broward, and Homestead, Department of
Commerce Office of Inspector General, ESD-13215-0-0001, September 2000.



                                                  29

U.S. Department of Commerce                                                              Final Report OIG-16949

Office of Inspector General                                                                      September 2004


 V.	    SOME MANAGEMENT AND ADMINISTRATIVE ACTIVITIES NEED 

        ATTENTION 


We reviewed various aspects of the management, administrative, and logistical support for
NRFU. During the course of our review, we observed some management differences between
the two LCO sites. While both sites appeared to adequately implement the NRFU operation,
Census managers in Queens appeared to have a better understanding of the purpose of the test.
We also identified some weaknesses with the crew leader selection criteria and selection process,
and found that Georgia had not, during the initial phases of the NRFU operation, followed
Census hiring procedures. Finally, some aspects of HHC inventory controls need strengthening.

A.      Test Implementation Differed Between the Two LCOs

A basic enumeration of population, housing units, and group quarters is usually conducted
during census site tests, resulting in a certified official population count. However, the bureau’s
primary objectives for the 2004 test were to evaluate
                                                              “We are to carry out our mission according
automated NRFU processes and supporting                       to the instruction/directives given to us so
operations (e.g., revised group housing definitions,          that they can be evaluated for their
staff training, etc.). To ensure that these objectives        effectiveness. That is what this test is all
                                                              about!”
were not overshadowed by the need for a complete
and accurate count, Census eliminated the                     New York Regional Director
requirement to obtain an official population count for        (Memo to LCO staff, March 31, 2004)
the test. Consequently, the 2004 test is fairly unique
in that it sought to capture and document objective information about functional operations (e.g.,
HHC processes) and performance (e.g., enumerator production rates) rather than to conduct a full
enumeration.

Operations at the two test sites intentionally differed in some respects. For example, Queens
conducted 100 percent address canvassing and Georgia conducted the update/leave operation. 16
However, we found unintentional differences in the way the two test sites documented problems.

A census test must adequately document problems encountered during the operations under
review so that those operations can be carefully evaluated and improved as needed. To capture
information to support evaluations, enumerators and other field staff are to document refusals
and other unusual situations, record HHC problems, and ask questions about procedures and
other work-related matters on a form referred to as an “Information Communication” (INFO
COMM) form. In addition, for this test, LCO office staff is responsible for documenting the
impact of the HHCs on LCO space, equipment, and staffing requirements in the “Office Staff
Daily Checklist and Diary.” Help desk personnel were to record all HHC technical or procedural
problems on the “LCO Help Desk Remedy Ticket” form, whether they came in by telephone or
personal visit, or were otherwise communicated by enumerators, crew leaders and crew leader


16
   Address canvassing is an operation where assignment areas are systematically traveled, block by block, to find
where people could live for the purpose of updating addresses and correcting maps. Update/Leave is a method used
primarily in areas where homes do not receive mail at a city-style address. Enumerators canvass assignment areas to
deliver a census questionnaire to be returned by mail and at the same time, update addresses and maps.



                                                     30

U.S. Department of Commerce                                                    Final Report OIG-16949

Office of Inspector General                                                            September 2004


assistants. As illustrated in table 2, we found that enumerators in Queens proportionally
documented more HHC problems than their counterparts in Georgia.
Table 2: Remedy Tickets Per Test Site
                                           Estimated Average No. of       Remedy Ticket per
Test Site          Remedy Tickets
                                                Enumerators                 Enumerator
Georgia                   247                        164                        1.50
Queens                   1,930                       711                        2.71

The differences in the number of tickets generated may be accounted for by various factors,
including differences in the size of the workforce, ability of the workforce, and volume of work.
However, it was apparent that the Queens LCO staff was aware of the dual objectives—
implementing a census test and documenting what did and did not work. All of the staff we
spoke with, from the LCO manager down to the enumerators, emphasized the importance of
documenting the problems encountered during the test. The assistant managers said they were
keeping a diary and preparing information for the debriefing that is to occur after the test.

Conversely, Georgia LCO staff admitted that during an earlier 2004 test operation, they
purposely did not report some of the less favorable details for fear that it would reflect poorly on
them. Also, one assistant manager admitted to not keeping a daily diary. Finally, there was a
perception by some of the LCO staff that some of the more outspoken personnel (i.e., staff more
likely to report problems) were intentionally excluded from the debriefings held with Census
headquarters.

In addition, correspondence from the New York Regional Office to the Queens LCO emphasized
the importance of documenting problems and other information. In a March 31, 2004,
memorandum to the area manager, LCO manager, all assistant managers, and regional
technicians, the NY Regional Director wrote, “An extremely critical component of the 2004
census test in NW Queens is the ability to conduct evaluations and debriefings from staff
participating in the test. … The census test is not the forum for you to deviate from established
procedures to ‘make it work smoothly or more efficiently.’” In a May 7, 2004, memorandum,
upon approving some procedural changes, the regional director again emphasized that LCO staff
should “maintain constant and consistent documentation.” We did not find similar input from
the Atlanta Regional Office.

CONCLUSION

A census test must adequately document problems encountered during the operations under
review so that those operations can be carefully evaluated and improved as needed. We found
that of the two sites, one seemed to have a clearer understanding of the purpose of the test. For a
census test to work, it is important that all parties involved understand the procedures to be
followed and the need for problems to be reported and documented.




                                               31

U.S. Department of Commerce                                                               Final Report OIG-16949

Office of Inspector General                                                                       September 2004


B.      Crew Leader Selection Criteria Need to Reflect Higher-Level Skill Requirements

Crew leaders perform a critical role in nonresponse followup: they train enumerators, coordinate
and oversee their activities, and review and certify their daily payroll forms. Crew leaders meet
regularly with their staff of enumerators to discuss work assignments, monitor progress, and
review completed work for accuracy and completeness.

The use of handheld computers in NRFU has added another technical skill requirement to the
                                                                           crew leader position, one that we believe
  Crew Leader Skill Set	                                                   is not adequately identified in the
                                                                           current selection process. To be an
                             Technical Skills
                                                                           effective crew leader, a candidate should
                   � Able to navigate HHC
                   � Comprehends HHC functionality
                                                                           have at least some training and
                   � Diagnostic/problem solving skills
                                                                           supervisory skills, along with technical
                   � On-the-job training proficiency                       or computer capabilities. However,
                                                                           eligibility requirements for crew leaders
            Training Skills
                                  CREW
                                                                           differ little from those for other LCO
                                                    Supervisory Skills
      � Speaks clearly           LEADER                                    positions—crew leaders take the same
                                               � Organized
      � Maintains eye contact                                              test used to fill clerical and help desk
                                               � Able to motivate staff
      � Avoids distracting habits
                                               � Respectful & professional
                                                                           clerk positions and enumerator
      � Varies voice tone
                                               � Diplomatic & courteous
                                                                           positions. Applicants with the highest
      � Reads at normal pace
                                                                           score are supposed to be selected as the
                                                                           crew leaders. No separate criteria are
                                                                           used to select crew leaders versus
enumerators or to take into account past management or technical capabilities and experience.
Rather, the basis for identifying potential crew leader candidates is only a high nonsupervisory
test score in conjunction with veterans’ preference points. This test consists of 28 multiple-
choice questions designed to measure skills and abilities needed to perform nonsupervisory
census jobs. (See Finding I, page 14, for a discussion of help desk training.) Figure 8 illustrates
the positions you can be considered for depending on the type of test you take.

Once a list of eligible candidates is     Figure 8: Test to Take for Various LCO Positions
generated based on the highest test       If you take the…         Then you can be considered for…
scores, temporary office clerks           Nonsupervisory test      Enumerator
conduct a telephone interview, using      (DB-267)                 Crew Leader
                                                                   Crew Leader Assistant
the “Selection Guide for Crew
                                                                   Recruiting Assistant
Leader” form. Only two questions                                   Office Clerk
differ from the guide used to select                               Administrative Clerk
enumerators—one asks candidates if        Supervisory test         Office Operations Supervisor
they are familiar with the area in        (DB-270)                 Field Operations Supervisor
which they live and the second asks       Source: Pre-Appointment and Selection Handbook (DB-1110)
if they are able and willing to handle leadership responsibilities. No face-to- face interview is
conducted.

Census officials agreed that the multiple-choice test does not capture the technical or supervisory
skills needed by crew leaders. And several field operations supervisors commented that some




                                                      32

U.S. Department of Commerce                                                    Final Report OIG-16949

Office of Inspector General                                                            September 2004


enumerators in training were more managerially and technically competent to be crew leaders
than the crew leaders who were training them.

CONCLUSION

Although crew leaders train, supervise, and are the first point-of-contact for enumerator technical
problems, census hiring procedures fail to address management and technical capabilities.
Rather, eligibility requirements for crew leaders differ little from those of enumerators and
clerical and help desk clerks. The criteria and process for selecting crew leaders need to be
examined.

C.     Georgia Failed to Comply with Census Hiring Policies

Census has very specific written policies to ensure that fair hiring practices are followed. We
found that the Georgia LCO ignored a number of these practices when hiring staff for the first
two field operations of the 2004 test. It did not adequately document the hiring process;
sometimes passed over candidates with high test scores in favor of lower-scoring applicants;
and—when supervisory positions were filled—placed applicants for the supervisory positions in
enumerator slots without requiring these applicants to compete with other enumerator applicants
in the pool. LCO management discontinued these practices after Census headquarters personnel
visiting Georgia pointed out the problems. However, many applicants had already been hired
under these practices, and most retained their positions through nonresponse followup.

The workflow for hiring personnel is shared between the assistant manager for field operations
and the assistant manager for administration: field operations prepares the “job certification”
form, which lists the criteria for each field position and specifies, among other things, the total
number to be hired for each position and type of test required (supervisory or nonsupervisory).
The assistant manager for administration then runs a “selection record” from the Census
Applicant Personnel & Payroll Processing System (CAPPS) that lists applicants who meet the
criteria, in descending order of veterans’ preference and high-test scores. Clerks from the
administration office contact eligible applicants from the selection record to offer them jobs
according to Census Selection Guidelines.

In Georgia, the assistant manager for administration ran the selection record as required, but the
assistant manager for field operations and his clerks called to extend offers. It appears that
applicants with lower test scores were sometimes offered jobs over higher scoring candidates.
For example, two crew leader assistants ranked 22nd and 42nd on a selection record of 50
applicants were hired over the other, higher-ranked applicants on this list. The documentation
retained in the files does not show that all higher-ranked candidates refused the jobs before the
positions were offered to the lower-ranking candidates.

In addition, applicants were hired as enumerators without having to adequately compete for the
positions. Field operations prepared a job certification for an enumerator position for an
applicant who had taken the supervisory test (see figure 8 for the position and test requirements).
Since applicants for the enumerator position are directed to take the nonsupervisory test, the
resulting selection record was limited to only a select few applicants. The assistant manager for




                                               33

U.S. Department of Commerce                                                            Final Report OIG-16949

Office of Inspector General                                                                    September 2004


field operations explained that the applicants in question actually wanted supervisory positions
but since all supervisory positions had been filled, they were offered enumerator positions
instead.

CONCLUSION

Census officials should ensure that LCO personnel follow hiring policies contained in Census’s
administrative manuals.

D.         HHC Inventory Controls Need Improvement

The LCO assistant manager for technology is tasked with tracking and controlling accountable
property that is brought into, used by, or deployed from the LCOs. “The Hand-Held Computer
Tracking and Control” manual provides procedural guidance for assigning HHCs to staff, and
instructions for using the automated property management system. While the guidance for
assigning HHCs to employees appears thorough, our review determined that more internal
controls are needed to monitor the return of HHCs from separated employees.

During nonresponse followup, the Queens office had an HHC inventory of 897 units, while
Georgia had 218. All employees are responsible for maintaining complete computer kits and
then turning them in when their employment ends. 17 Departing enumerators are instructed to
give their computer kits to their crew leader, who returns the kits, along with the proper
paperwork, to the LCO.

The assistant manager for technology has no way of knowing when enumerators leave LCO
employment and thus is unable to monitor whether separated employees have returned their
HHCs. To overcome this, the Georgia LCO developed a spreadsheet to track separated
employee HHC returns. Comparing a list of separated employees to the inventory was discussed
but not implemented in Queens during NRFU, in part because the volume of employees, 52
percent turnover rate, and the high number of HHC problems overwhelmed the field office staff.
In addition, there was no automated process in place to compare separated employees with the
HHC inventory.

Currently, separated employee information is not communicated to the staff responsible for
maintaining the inventory. Once a resignation or termination action is initiated, the assistant
manager for field operations signs the paperwork and gives it to the assistant manager for
administration, who processes the separation. However, no formal checkout procedures exist to
ensure that all equipment has been returned before the employee receives a final paycheck.

CONCLUSION

While the assignment of handheld computers to staff appears sufficient, there should be a formal
mechanism in place to monitor and ensure the prompt return of the handheld computer
equipment from separated employees.

17
     Computer kits consist of the handheld computers, cables, and other peripherals.




                                                        34

U.S. Department of Commerce                                 Final Report OIG-16949

Office of Inspector General                                         September 2004


                        APPENDIX: CENSUS BUREAU RESPONSE





                                      35

U.S. Department of Commerce         Final Report OIG-16949

Office of Inspector General                 September 2004





                              36

